No. 19-283
In the

Supreme Court of the United States
__________________

CITY OF TRINIDAD, COLORADO,
Petitioner,
v.
STEPHEN HAMER,
__________________

Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

__________________

BRIEF FOR AMICI CURIAE INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION AND
COLORADO MUNICIPAL LEAGUE IN
SUPPORT OF PETITIONER
__________________
WYNETTA P. MASSEY
Counsel of Record
LINDSAY M. ROSE
Office of the City Attorney
30 S. Nevada Avenue, Suite 501
Colorado Springs, CO 80903
(719) 385-5909
wynetta.massey@coloradosprings.gov
lindsay.rose@coloradosprings.gov
Counsel for Amici Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. Clear, Consistent, and Workable Standards
Regarding Application of the Statute of
Limitations to ADA Claims Benefit Everyone . . . 3
1. Public Entities Benefit In Their Efforts to
Comply With the Acts . . . . . . . . . . . . . . . . . . . 4
2. Individuals with Disabilities Benefit By
Knowing When and How to Raise
Accessibility Issues Effectively. . . . . . . . . . . . . 7
B. The Tenth Circuit’s Decision Effectively
Eliminates the Statute of Limitations in
Abrogation of Important Policy Considerations
and Ultimately Delays Accessibility . . . . . . . . . . 8
1. Statutes of Limitations Have a Necessary
Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
2. The Repeated Violations Doctrine Eliminates
Any Statute of Limitations for ADA Claims,
Prejudicing Public Entities and Increasing
Litigation and Risk . . . . . . . . . . . . . . . . . . . . . 9
3. The Repeated Violations Doctrine Increases
Liability for Public Entities Unnecessarily . . 12

ii
C. The Repeated Violations Doctrine Exacerbates
Already Significant Fiscal and Operational
Burdens on Public Entities. . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF AUTHORITIES
CASES
Agency Holding Corp. v. Malley-Duff & Assocs., Inc.,
483 U.S. 143 (1987). . . . . . . . . . . . . . . . . . . . . . . . 6
Center for Independence of the Disabled, New York
et al. v. City of New York et al., No. 1:14-cv05884-GBD-KNF (S.D.N.Y. Mar. 19, 2019) . . . . 14
Denny v. City and County of Denver,
No. 2016CV030247 (Denv. Dist. Ct.
Sept. 9, 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Guaranty Trust Co. v. United States,
304 U.S. 126 (1938). . . . . . . . . . . . . . . . . . . . . . 8, 9
Hainze v. Richards,
207 F.3d 795 (5th Cir. 2000). . . . . . . . . . . . . . . . . 2
Hines v. City of Portland,
3:18-cv-00869-HZ (D. Or. Sept. 27, 2018) . . . . . 14
Indep. Living Res. v. Oregon Arena Corp.,
1 F. Supp. 2d 1124 (D. Or. 1998) . . . . . . 14, 17, 18
King et al. v. City of Colorado Springs, No. 1:19-cv00829-JLK (D. Colo. Mar. 21, 2019). . . . . . . . . . 14
Kirola v. City and County of San Francisco,
74 F. Supp. 3d (N.D. Cal. 2014) . . . . . . . . . . . . . 14
Lee v. Dep’t of Health,
718 P.2d 221 (Colo. 1986) . . . . . . . . . . . . . . . . . . 10
Molski v. M.J. Cable, Inc.,
481 F.3d 724 (9th Cir. 2007). . . . . . . . . . . . . . 4, 14

iv
Ochoa et al. v. City of Long Beach et al.,
No. 2:14-cv-04307-DSF-FFM
(C.D. Cal. Mar. 10, 2017) . . . . . . . . . . . . . . . 14, 15
Reynoldson v. City of Seattle,
No. 2:15-cv-01608-BJR (W.D. Wash. Nov. 1,
2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
U.S. v. Kubrick,
444 U.S. 111 (1979). . . . . . . . . . . . . . . . . . . 8, 9, 10
Willits et al. v. City of Los Angeles,
No. 2:10-cv-05782-CBM-MRW (C.D. Cal.
Jan. 8, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Wilson v. Garcia,
471 U.S. 261 (1985). . . . . . . . . . . . . . . . . . . . . . . . 6
STATUTES AND REGULATIONS
28 C.F.R. Part 35 app. A . . . . . . . . . . . . . . . . . . . . . 16
28 C.F.R. § 35.105 . . . . . . . . . . . . . . . . . . . . . . . . . . 15
28 C.F.R. § 35.150 . . . . . . . . . . . . . . . . . . . . . . . 13, 16
28 C.F.R. § 35.150(d) . . . . . . . . . . . . . . . . . . . . . . . . 15
28 C.F.R. § 35.151 . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 C.F.R. § 35.151(b) . . . . . . . . . . . . . . . . . . . . . . . . 16
28 C.F.R. § 202.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 C.F.R. § 405 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
29 U.S.C. § 794 . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 9, 11
29 U.S.C. § 794(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

v
29 U.S.C. § 794(b). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 12131 . . . . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
2010 ADA Standards for Accessible Design (Dep’t of
Justice, Sept. 15, 2010), available at
https://www.ada.gov/regs2010/2010ADAStand
ards/2010ADAstandards.htm. . . . . . . . . . . . 13, 17
Martin E. Comas, Local Governments on Alert Over
Lawsuits Targeting ADA Violations Over Website
Documents, ORLANDO SENTINEL, Jan. 4, 2019, at
https://www.orlandosentinel.com/news/os-neada-lawsuits-blind-local-governments-20190104story.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Joe Duggan, Faced with $28 Million Judgment in
Beatrice Six Case, Gage County Has No Easy
Options, OMAHA WORLD-HERALD, Jun. 13, 2018,
at https://www.omaha.com/news/nebraska/facedwith-million-judgment-in-beatrice-six-case-gagecounty/article_8222aed2-142f-548a-ac65d98bbe792268.html. . . . . . . . . . . . . . . . . . . . . . . 21
United States Census Bureau, 2017 Census of
Governments – Organization, Table 2 (Apr. 25,
2019), available at https://www.census.gov/data/
tables/2017/econ/gus/2017-governments.html. . . 4
Tad Vezner, ADA Lawsuit Targets Minnesota Local
Government Sites, GOV’T TECH., Oct. 8, 2018, at
https://www.govtech.com/computing/ADALawsuit-Targets-Minnesota-Local-GovernmentSites.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

1
INTEREST OF AMICI CURIAE1
International Municipal Lawyers Association
(“IMLA”) is a non-profit organization dedicated to
advancing the responsible development of municipal
law through education and advocacy by providing the
collective viewpoint of local governments around the
country on legal issues before the United States
Supreme Court, the United States Courts of Appeals,
and in state supreme and appellate courts. Established
in 1935, IMLA serves as an international clearinghouse
of legal information and cooperation on municipal legal
matters for its more than 2,500 members across the
United States and Canada.
Colorado Municipal League (“CML”) was formed in
1923 and is a non-profit, voluntary association of 270 of
the 272 municipalities located throughout the state of
Colorado (comprising nearly 99 percent of the total
incorporated state population), including all 102 home
rule municipalities, 168 of the 170 statutory
municipalities, and the lone territorial charter city, all
municipalities greater than 2,000 in population, and
the vast majority of those having a population of 2,000
or less.
IMLA’s and CML’s participation as amici is
intended to provide a broad governmental perspective
1

Counsel for amici provided timely notice of intent to file this brief
to counsel of record for the parties under Supreme Court Rule
37.2(a), and all parties granted consent. As required by Supreme
Court Rule 37.6, no counsel for any party authored this brief in
whole or in part, and no counsel, party, or person other than amici
and their members or counsel made a monetary contribution
intended to fund the preparation or submission of this brief.

2
to the Court on the application of the statute of
limitations under Title II of the Americans with
Disabilities Act of 1990, 42 U.S.C. § 12131 (“ADA”) and
Section 504 of the Rehabilitation Act of 1973, 29 U.S.C.
§ 794 (“RA”) (collectively, “the Acts”).2 The petition
raises a significant and timely issue impacting public
entities nationwide, including states, counties, cities,
towns, and each of their instrumentalities that are
subject to the Acts’ requirements. For this reason,
amici do not distinguish between municipalities and
other public entities as the impacts are the same for all
public entities subject to the Acts.
SUMMARY OF ARGUMENT
The Tenth Circuit’s adoption of the repeated
violations doctrine substantially conflicts with other
circuits concerning broad, federal anti-discrimination
statutes applicable to every public entity across the
nation. The circuit split harms public entities in their
efforts to comply with the Acts, and it harms
individuals with disabilities asserting claims under the
Acts. At a time when accessibility lawsuits against
public entities are increasing exponentially,3 clear,
consistent, and workable standards regarding when
ADA claims accrue benefit everyone and are of utmost
importance.

2

The ADA and the RA provide nearly identical rights, procedures,
and remedies. Hainze v. Richards, 207 F.3d 795, 79 (5th Cir. 2000).
For simplicity, amici uses the term “ADA” throughout the
remainder of this brief to include both the ADA and the RA unless
otherwise indicated.
3

See Pet. at n.5.

3
In addition to the circuit split, the Tenth Circuit’s
extraordinary application of the repeated violations
doctrine to the statute of limitations ignores important
policy considerations and drastically increases liability
for public entities within the Tenth Circuit and other
circuits that may follow it, sowing confusion for local
governments around the country in the process. The
Tenth Circuit’s decision delays accessibility
improvements for individuals with disabilities and
exacerbates the already large fiscal and operational
burdens faced by public entities regarding their
facilities, streets, and other infrastructure, putting
essential government services at risk.
ARGUMENT
A. Clear, Consistent, and Workable Standards
Regarding Application of the Statute of
Limitations to ADA Claims Benefit Everyone
The implications of this case are broad-reaching and
significant. The ADA applies to “public entities”
regardless of population or size and includes “any State
or local government” and “any department, agency,
special purpose district, or other instrumentality of a
State or States or local government.” 42 U.S.C. § 12131.
The RA applies to “any program or activity receiving
Federal financial assistance.” 29 U.S.C. § 794(a). A
“program or activity” includes “all of the operations of
a department, agency, special purpose district, or other
instrumentality of a State or of a local government.” Id.
§ 794(b). Every state and all 90,000-plus local

4
governments nationwide,4 therefore, are subject to the
ADA. Thus, the point when an individual’s Title II
claims become time-barred undisputedly affects every
public entity and every individual with a disability in
the country.
The petition demonstrates how the Tenth Circuit’s
lone adoption of the repeated violations doctrine for
ADA claims has further contributed to a split in the
five circuits that have weighed in on this issue. Unless
this Court resolves the split, any or all of the remaining
six circuits risk following the Tenth Circuit’s erroneous
decision. Indeed, the circuit split harms everyone
involved. It creates confusion and inconsistency for
those trying to comply with the Acts and also for those
seeking redress under the Acts.
1. Public Entities Benefit In Their Efforts to
Comply With the Acts
Public entities, and thus, taxpayers nationwide,
benefit from having clear, consistent, and workable
guidance on broad issues affecting them. ADA issues,
particularly removal of architectural barriers, are a
“highly technical” area of law. Molski v. M.J. Cable,
Inc., 481 F.3d 724, 732 n.5 (9th Cir. 2007) (“The issues
involved [in accessibility cases] are, to be frank, mindnumbingly boring; the ADA Accessibility Guidelines
regulate design elements down to the minutest
detail . . . [and] the ADA’s requirements are ‘highly
technical . . . .’”) (citation omitted). Public entities must
4

United States Census Bureau, 2017 Census of Governments –
Organization, Table 2 (Apr. 25, 2019), available at https://www.census.
gov/data/tables/2017/econ/gus/2017-governments.html.

5
often look to the United States Department of Justice
or Access Board to guide decisions about what complies
under the Acts because of the limited number of court
decisions on these issues. Organizations like amici can
attest that public entities also look to each other and to
amici for guidance on how to address common issues
and comply with common requirements under the Acts.
No one argues that the Acts’ requirements are
unimportant. Still, public entities nationwide struggle
in their efforts to comply due to equally important
operational and fiscal responsibilities discussed more
fully below. As the number of ADA lawsuits against
public entities rises,5 public entities must be able to
evaluate their potential liability, which is directly tied
to when the limitations period starts to run. The
availability of workable guidance on ADA issues
reduces uncertainty and promotes efficiency for public
entities. Clarity about application of the statute of
limitations to ADA claims is especially helpful for
entities in jurisdictions without a binding circuit
opinion to guide them.
Indeed, it makes no sense for the law concerning
something as important as the application of statutes
of limitations to claims under broad federal statutes to
vary by circuit. Although public entities can have
differing issues in complying with the Acts and the
applicable limitations periods under state law may
vary, the point in time when ADA claims accrue is not
geographically significant. The Acts’ requirements
apply equally to all public entities. Allowing some
circuits to calculate the statute of limitations based on
5

Supra note 3.

6
the more forgiving repeated violations or continuing
violation doctrines will make those circuits even more
of a target for trending ADA lawsuits.6 There is also
the risk that other circuits will follow the Tenth
Circuit’s erroneous decision, leading only to more
confusion among public entities and claimants alike as
to when an ADA claim is time-barred.
Recognizing these same potential consequences, this
Court adopted uniform limitations periods for federal
RICO and § 1983 claims, stating:
[A] uniform statute of limitations is required to
avoid intolerable “uncertainty and timeconsuming litigation.” This uncertainty has realworld consequences to both plaintiffs and
defendants . . . . “Plaintiffs may be denied their
just remedy if they delay in filing their claims,
having wrongly postulated that the courts would
apply a longer statute. Defendants cannot
calculate their contingent liabilities, not
knowing with confidence when their delicts lie in
repose.”
Agency Holding Corp. v. Malley-Duff & Assocs., Inc.,
483 U.S. 143, 150 (1987) (quoting Wilson v. Garcia, 471
U.S. 261, 272 & 275 n.34 (1985); internal citations
omitted). The Court’s reasoning supports petitioner’s
and amici’s arguments for uniform accrual of the
limitations period under the Acts.
Moreover, inconsistent application of the statute of
limitations uniquely burdens amici in their respective
6

Id.

7
missions to educate their local government members on
important issues of state and federal law. Differences
in the application of the statute of limitations based
purely on geography undermines amici’s important
educational and training objectives.
2. Individuals with Disabilities Benefit By
Knowing When and How to Raise
Accessibility Issues Effectively
The circuit split also raises questions for claimants
of when and how they must assert ADA claims to be
timely and the extent of potential damages available.
Individuals with disabilities moving from one circuit to
another or visiting multiple circuits know or should
know soon thereafter whether the jurisdiction is
accessible. Individuals in circuits following the usual
application of statutes of limitations under other
federal civil rights laws must assert their claims soon
after moving to or visiting the new jurisdiction and
acquiring this knowledge to avoid their claims being
time-barred. These same individuals in circuits
adopting the repeated violations or continuing violation
doctrine, however, can wait to assert their claims for
years or even decades. A clear, consistent, and
workable rule of law as to when the limitations period
runs prevents unsuspecting plaintiffs who move from
one jurisdiction to another from having their claims
barred because they were operating under the more
lenient law of another jurisdiction.
Thus, everyone benefits when there is clear,
consistent, and workable jurisprudence guiding
decisions under the Acts. Accrual of ADA claims ought
to be the same for all parties involved.

8
B. The Tenth Circuit’s Decision Effectively
Eliminates the Statute of Limitations in
Abrogation of Important Policy
Considerations and Ultimately Delays
Accessibility
1. Statutes of Limitations Have a Necessary
Purpose
Statutes of limitations serve an important public
interest. As the Court has explained:
Statutes of limitation, which are found and
approved in all systems of enlightened
jurisprudence, represent a pervasive legislative
judgment that it is unjust to fail to put the
adversary on notice to defend within a specified
period of time and that the right to be free of
stale claims in time comes to prevail over the
right to prosecute them. These enactments . . .
protect defendants and the courts from having to
deal with cases in which the search for truth
may be seriously impaired by the loss of
evidence, whether by death or disappearance of
witnesses, fading memories, disappearance of
documents, or otherwise.
U.S. v. Kubrick, 444 U.S. 111, 117 (1979) (internal
citations and quotations omitted). Indeed, the Court
has long instructed lower courts not to construe a
statute of limitations “so as to defeat its obvious
purpose, which is to encourage the prompt presentation
of claims.” Id. at 117. Instead, statutes of limitations
should be regarded as a “‘meritorious defense, in itself
serving a public interest.’” Id. (quoting Guaranty Trust

9
Co. v. United States, 304 U.S. 126 (1938)). Although
“statutes of limitations often make it impossible to
enforce what were otherwise perfectly valid claims, . . .
that is their very purpose.” Id. at 125.
2. The Repeated Violations Doctrine
Eliminates Any Statute of Limitations for
ADA Claims, Prejudicing Public Entities
and Increasing Litigation and Risk
The Tenth Circuit’s adoption of the repeated
violations doctrine has broad and substantial impacts
well beyond saving Mr. Hamer’s claims. Mr. Hamer did
not miss the statutory deadline by years or decades. He
missed it by six months or less. Especially when a
statute of limitations bars a claim based on a narrow
window of time, it can be compelling to consider
exceptions which may provide the claimant relief.
However, and to be clear, the Tenth Circuit’s decision
opens the door for the assertion of other claims against
public entities for barriers claimants have possibly
known about for decades since the ADA’s passage in
1990 and the RA’s passage in 1973. Like the continuing
violation doctrine, the Tenth Circuit’s repeated
violations doctrine is tantamount to eliminating the
statute of limitations on any claims for as long as the
alleged barrier to public access was constructed,
installed, or improved. Neither of these doctrines
“encourage[s] the prompt presentation of claims.” Id. at
117.
As in Kubrick, allowing plaintiffs to bring claims
long after the actionable conduct occurred prejudices
the judicial system and parties because, over time,
witnesses are less likely to be available to testify,

10
memories fade, and important documentary evidence
may become unavailable. Id. Public entity defendants
especially are prejudiced by witness unavailability and
faded memories due to employee and elected official
turnover. Now, public entities in the Tenth Circuit (and
possibly elsewhere) must expend considerable
resources to retain and store otherwise inconsequential
records in perpetuity to defend against ADA claims
possibly decades after the claims first arose. Beyond
the impossible task of defending decades’ old decisions
and facts, an open-ended claims period will likely
increase lawsuits against public entities, adding to
their risk exposure. The Tenth Circuit’s decision opens
the floodgates and invites claimants otherwise deterred
by the usual application of the statute of limitations
from asserting claims first discovered years ago to come
forward now years later.
Much like governmental immunity statutes aim to
reasonably limit public entities’ potential liability,
statutes of limitations enable public entities to manage
risk and provide effective and efficient government
services. See, e.g., Lee v. Dep’t of Health, 718 P.2d 221,
227-28 (Colo. 1986) (Colorado Governmental Immunity
Act’s limitation of liability “proceeds from actual
differences in the magnitude and character of the
functions assumed by public entities and in the effect
of greater potential liability exposure on the public
entity’s ability to continue its governmental functions”
and “is reasonably related to the governmental
objective of providing fiscal certainty in carrying out
the manifold responsibilities of government”). When
liability is limited to barriers first encountered within
the limitations period, public entities can reasonably

11
evaluate their exposure for ADA claims based on the
number of existing barriers. The continuing violation
and repeated violations doctrines, however, remove the
certainty a statute of limitations necessarily brings
public entities to establish procedures, priorities, and
appropriations to address risk exposure, improve
access, and continue the business of government at the
same time.
Although the Tenth Circuit claims the repeated
violations doctrine “serves the interests of efficiency”
because non-parties may benefit from a favorable ADA
or RA ruling, Pet. App. at 26 n.12, those individuals are
not necessarily precluded from bringing their own suits
against the public entity for damages. Multiple lower
court judges could also order different injunctive relief,
varying either the scope or the timeline for achieving
compliance.
Unfortunately, contrary to the Tenth Circuit’s
opinion, application of the repeated violations doctrine
will likely increase rather than reduce the number of
accessibility suits and potential damages against public
entities. Attorney’s fees and injunctive relief are
commonly awarded for ADA claims. This model already
incentivizes plaintiffs and attorneys to sue for even
minor violations and has resulted in an increasing
number of ADA lawsuits being filed across the country.
Pet. at n.5; see also infra note 6. But plaintiffs are
further incentivized under the repeated violations
doctrine to delay bringing their claims so they can
allege intentional discrimination and recover monetary
damages as well.

12
Moreover, the limitations defense is no longer a
meritorious defense for public entities in the Tenth
Circuit (and possibly elsewhere). Now, assuming that
sidewalks and curb ramps are a service, which is a
legal issue yet to be decided in this case, an entity with
even a single non-compliant curb ramp could be subject
to as many lawsuits for damages and attorneys’ fees as
there are individuals with disabilities who intend to
someday access the area the ramp serves. See Pet. App.
at 31 (intent to access the facility or activity all that is
required for injury under the ADA).
The burden on public entities to defend themselves
in these lawsuits further reduces their already limited
resources for ADA improvements within their
jurisdiction and, thus, actually reduces accessibility.
This case provides a poignant example where petitioner
was already in the process of working with the
Department of Justice to improve accessibility when
Mr. Hamer sued, distracting petitioner from the
business of improving accessibility and partnering with
the federal government. The Court should not allow
this result to persist. Instead, to increase accessibility
and to remain consistent with the important purpose of
statutes of limitations, plaintiffs and their attorneys
should be incentivized to assert ADA claims sooner
rather than later.
3. The Repeated Violations Doctrine Increases
Liability for Public Entities Unnecessarily
The petition demonstrates how the repeated
violations doctrine creates near perpetual liability for
public entities for ADA claims. Perhaps knowing this,
the Tenth Circuit tries to justify its extraordinary

13
decision by asserting that public entities will be
“incentivized to remedy non-compliant services,
programs, or activities in a reasonable yet efficient
manner.” Pet. App. at 31 (emphasis added). But the
Tenth Circuit also requires public entities to achieve
complete compliance to avoid the increased liability its
decision causes. The two cannot be reconciled.
First, complete compliance with the Acts is nearly
impossible because of the various fiscal and operational
constraints imposed on public entities discussed below.
Recognizing this, Congress, in enacting the ADA, did
not require complete accessibility. 28 C.F.R. § 35.150
(every “public entity shall operate each service,
program, or activity so that the service, program, or
activity, when viewed in its entirety, is readily
accessible”) (emphasis added). Indeed, the ADA “does
not . . . [n]ecessarily require a public entity to make
each of its existing facilities accessible” or “[r]equire
any public entity to take any action that it can
demonstrate would result in a fundamental
alteration . . . or in undue financial administrative
burdens.” Id. Other exceptions to complete compliance
exist too. See id. § 35.151 (“Full compliance . . . is not
required where a public entity can demonstrate that it
is structurally impracticable to meet the
requirements.”); 2010 ADA Standards for Accessible
Design § 202.3 (Dep’t of Justice, Sept. 15, 2010) (“In
alterations, where compliance with applicable
requirements is technically infeasible, the alteration
shall comply with the requirement to the maximum
extent feasible.”) (orig. emphasis), available at
https://www.ada.gov/regs2010/2010ADAStandards/20
10ADAstandards.htm.

14
This is perhaps because the ADA’s technical
requirements are quite rigid. See Molski, 481 F.3d at
732 n.5 (“the ADA Accessibility Guidelines regulate
design elements down to the minutest detail . . . [and]
the ADA’s requirements are ‘highly technical . . . .’”)
(citation omitted). As an example, a newly installed
ramp may have a cross slope of 2.1% instead of 2.0%
because of an unsteady hand on the concrete finish
work, use of different measuring levels, or placement of
the same measuring level in approximately the same
but not identical place. See, e.g., Kirola v. City and
County of San Francisco, 74 F. Supp. 3d 1187, 1227
(N.D. Cal. 2014) (“[u]se of a short level . . . ‘gives
exaggerated readings because it’s so short [that] it
picks up minor fluctuations;’” citation omitted); Indep.
Living Res. v. Oregon Arena Corp., 1 F. Supp. 2d 1124,
1147 (D. Or. 1998) (“[slope] measurement can be
affected by a number of variables, including the precise
location where the measurement is taken”). The ramp
may be just as accessible in the broad sense of the word
as a ramp with a 2.0% cross slope, yet claimants can
(and do) sue to enforce the strict language of the ADA.7
7

In fact, a handful of disability rights advocates have obtained
multi-million dollar class action settlements against public entities
across the country for allegedly defective or missing ramps and
sidewalks at an increasing pace. See, e.g., settlement agreements
filed in King et al. v. City of Colorado Springs, No. 1:19-cv-00829JLK (D. Colo. Mar. 21, 2019) (requiring 15,400 new or retrofitted
ramps over 14-year period); Center for Independence of the
Disabled, New York et al. v. City of New York et al., No. 1:14-cv05884-GBD-KNF (S.D.N.Y. Mar. 19, 2019) (17+ year agreement
covering all New York City corners); Hines v. City of Portland,
3:18-cv-00869-HZ (D. Or. Sept. 27, 2018) (18,000 ramps over 12
years); Reynoldson v. City of Seattle, No. 2:15-cv-01608-BJR (W.D.
Wash. Nov. 1, 2017) (22,500 ramps over 18 years); Ochoa et al. v.

15
The ADA’s implementing regulations, first
promulgated in 1991, also did not require public
entities to remove all existing barriers overnight as the
Tenth Circuit suggests entities must do here. Public
entities were instead directed to evaluate and prepare
a transition plan for removing barriers, which could be
accomplished over multiple years. 28 C.F.R. §§ 35.105
& 35.150(d) (“if the time period of the transition plan is
longer than one year, [public entity must] identify steps
that will be taken during each year of the transition
period”). In fact, some barriers are not required to be
City of Long Beach et al., No. 2:14-cv-04307-DSF-FFM (C.D. Cal.
Mar. 10, 2017) ($200 million for barrier removal over 30 years);
Denny v. City and County of Denver, No. 2016CV030247 (Denv.
Dist. Ct. Sept. 9, 2016) (1,500 ramps per year until all are
compliant); Willits et al. v. City of Los Angeles, No. 2:10-cv-05782CBM-MRW (C.D. Cal. Jan. 8, 2016) ($1.37 billion over 30 years for
ramps and sidewalks). These settlements typically require the
entity to survey its existing infrastructure to identify all
noncompliant ramps or sidewalks and then obligate the entity to
install or remediate ramps and sidewalks that do not meet the
agreed upon specifications. The settlements also require payment
of hundreds of thousands of dollars, and even millions of dollars as
in the Willits case, for attorneys’ fees over multi-year terms.
Sometimes the parties agree to a tolerance above what the ADA
requires (e.g., 3% cross slope as being acceptable rather than
requiring 2%), but sometimes a 0.1% difference might be
actionable under the settlement. Widespread suits involving public
entity websites and parking facilities may be next on the horizon.
See, e.g., Martin E. Comas, Local Governments on Alert Over
Lawsuits Targeting ADA Violations Over Website Documents,
ORLANDO SENTINEL, Jan. 4, 2019, at https://www.orlandosentinel.
com/news/os-ne-ada-lawsuits-blind-local-governments-20190104story.html; Tad Vezner, ADA Lawsuit Targets Minnesota Local
Government Sites, G OV ’ T T ECH ., Oct. 8, 2018, at
https://www.govtech.com/computing/ADA-Lawsuit-TargetsMinnesota-Local-Government-Sites.html.

16
removed until the facility containing the barrier is
altered. Id. § 35.151(b). Public entities have relied on
these regulations to plan for and phase barrier removal
for almost 30 years.
Multi-year plans are simply necessary due to the
budgetary and operational constraints explained below.
With the cost of a single curb ramp averaging several
thousand dollars, it is easy to imagine that most public
entities will not have sufficient, unobligated financial
resources to remove all barriers overnight.8 Even if
they did, maintaining compliant infrastructure also
requires substantial resources. Indeed, the Department
of Justice reconfirmed in its 2010 guidance the intent
that “public entities have flexibility in addressing
accessibility issues.” 28 C.F.R. Part 35 app. A
(analyzing § 35.150).
Under the Tenth Circuit’s decision, however, public
entities can only limit their liability and defend against
claims that may have originated years or decades
earlier by removing each and every barrier
immediately and completely and in disregard of the
necessary iterative and dialectic dynamic between
public entities and the public. Still, liability may
continue after all barriers are fixed where plaintiffs can
prove injury – such as simply an intent to access an
area served by a former barrier – during the
limitations period.
8

Amici submit this is a primary factor public entities consider
when threatened with class action litigation. It is a factor that
often forces the entity to settle because they can negotiate the time
allowed for remediation rather than risk a court ordering that all
barriers be removed in a shorter time period. See supra note 6.

17
Further, applying either the repeated violations or
continuing violation doctrines to ADA claims assumes
an omniscient viewpoint exists from which public
facilities and infrastructure may be evaluated at one
point in time. This contradicts the reality of public life
in America: there is no state of perfection. Rather,
government must constantly update its services and
infrastructure to make government meaningful and
accessible to the public. This will be extremely
challenging for public entities of all sizes.
The Tenth Circuit’s application of the repeated
violations doctrine to the statute of limitations is
neither reasonable nor efficient. Although some new
technologies are being used to measure public
infrastructure assets, the most reliable method for
collecting curb ramp and sidewalk data is to physically
visit each location, place a level multiple times in
multiple places, and record the numerous
measurements required by the ADA. See 2010 ADA
Standards for Accessible Design § 405 (listing ramp
standards such as running slope, cross slope, counter
slope, width, location, condition, and existence of
external features impacting accessibility). These
surveys can take years to complete even for an averagesized jurisdiction. See cases cited supra note 6 (allowing
multiple years to perform required surveys). Even
then, measurements will vary by individual and over
time as concrete naturally heaves and cracks. In
Independent Living Resources v. Oregon Arena
Corporation, for example, the parties obtained differing
measurements at the very same time:

18
The parties initially disagreed on many of the
slope measurements, at least in part because the
measurement can be affected by a number of
variables, including the precise location where
the measurement is taken. At the conclusion of
the court trial, the parties made a site visit in
which they took additional measurements
together and submitted those to the court along
with charts and photographs showing the
location where each measurement was taken.
There were still occasional discrepancies
between the measurements, which most likely
are attributable to the different surveying
instruments that the parties used.
1 F. Supp. 2d 1124, 1147 (D. Or. 1998) (footnote
omitted).
Certainly very few, if any, public entities have the
resources to survey their public infrastructure daily to
ensure nothing happened overnight to a particular
ramp or sidewalk section making it non-compliant
under the ADA. Yet the Tenth Circuit requires exactly
this (in addition to completely remediating all existing
infrastructure as an initial matter) to avoid near
perpetual liability. The Tenth Circuit’s suggestion that
public entities should “simply mak[e] their programs,
services, and activities accessible”9 is easier said than
done and completely removed from reality.
The Tenth Circuit’s decision also fails to
acknowledge that an award of injunctive relief and
attorneys’ fees is the same for barriers encountered
9

Pet. App. at 31.

19
inside the limitations period as it would be for barriers
encountered outside the limitations period. Moreover,
limiting damages to, here, the two-year period prior to
filing suit does not change the public entity’s
compliance responsibilities under the Acts. Instead,
claimants whose claims would have been stale under
the usual application of statutes of limitations (and the
lawyers representing them) now have an incentive to
sue, and in some circumstances, an incentive to sit on
claims for an extended period of time to try to create a
claim of intentional discrimination to obtain monetary
damages in addition to remediation.
C. The
Repeated
Violations
Doctrine
Exacerbates Already Significant Fiscal and
Operational Burdens on Public Entities
Even before now, public entities have faced heavy
fiscal and operational burdens regarding ADA
compliance. As stewards of taxpayer dollars, public
entities are necessarily risk adverse. They are
accountable for utilizing finite (and often insufficient)
financial resources to the greatest extent possible,
while balancing a plethora of competing needs and
priorities. Indeed, citizens expect their tax dollars to be
budgeted and spent appropriately to provide necessary
services to the community and maintain the public
entity’s assets and infrastructure. Public entities must
predict and prioritize their community’s needs to
ensure limited funds are maximized. For this reason,
the budget process is and must be forward-looking, not
just to the immediate budget year, but to several
budget years in the future.

20
Due to limited funding, public entities must be able
to prioritize, plan for, and complete accessibility
improvements in a manner that is both resource- and
time-efficient. It is more efficient and effective to do
this by identifying and removing barriers within
specific geographical areas or by importance based on
effect to the largest number of citizens and by bidding
out larger projects or groups of smaller projects, rather
than running work crews and cement trucks back and
forth across the entire jurisdiction, installing and
repairing ramps and sidewalks in piecemeal fashion.
Unfortunately, dwindling tax revenues or
unexpected liabilities can quickly derail even the most
robust transition plan. Aside from budget shortfalls,
unpredictable catastrophes such as wildfires or floods
can force public entities to shift funds from planned
accessibility improvements to essential services such as
police and fire protection. Weather conditions like
disastrous, unavoidable, and unpredictable freeze-thaw
cycles can wreak havoc on public entities’ streets,
sidewalks, and curb ramps, requiring more frequent
repair, increasing materials and maintenance costs,
and further contributing to the backlog of accessibility
improvements. Actual labor and materials costs beyond
budgeted amounts also significantly impede a public
entity’s ability to perform planned improvements. And
unanticipated lawsuits can sometimes have a crippling
effect on local governments.10
10

For example, with the advent of DNA testing and organizations
like the innocence project, more people are having their decadesold convictions overturned and then suing local governments for
tens of millions of dollars. In some cases, an unanticipated and
unbudgeted lawsuit like this can result in the local government

21
It is not surprising that funding shortages and
constraints in operating budgets have caused many
public entities to fall behind on the construction,
operation, and maintenance of their infrastructure. The
maxim is true: America’s public infrastructure is
deteriorating due to a paucity of capital budget
resources. This reality impacts public entities’ ability
to comply with the ADA and undercuts the Tenth
Circuit’s misunderstanding that the only financial
impact of its decision on public entities concerns the
(currently) infrequent award of monetary damages. See
Pet. App. at 32-33. Setting aside whether public
entities can bear the financial impact of monetary
damages, litigation costs, and attorneys’ fees regarding
ADA claims in a time when such claims are increasing,
the financial impact of having to install or remediate
infrastructure in a piecemeal manner across the entire
jurisdiction is not something they can bear.
The Tenth Circuit’s decision allowing claimants to
file suit to remove barriers spanning years and vast
geographical areas will disrupt public entities’ ability
to perform accessibility improvements in a strategic,
resource- and time-efficient manner, and thus, do more
with the money available. Instead, public entities
subject to the decision are now required to remove
possibly long lists of barriers spread out across entire
jurisdictions immediately to avoid never-ending
liability, monetary damages, and high attorneys’ fees
facing bankruptcy. See, e.g., Joe Duggan, Faced with $28 Million
Judgment in Beatrice Six Case, Gage County Has No Easy Options,
OMAHA WORLD-HERALD, Jun. 13, 2018, at https://www.omaha.com/
news/nebraska/faced-with-million-judgment-in-beatrice-six-casegage-county/article_8222aed2-142f-548a-ac65-d98bbe792268.html.

22
awards, which further increases the operational and
financial burdens public entities face and jeopardizes
funding for essential public services.
CONCLUSION
This case presents a compelling vehicle to resolve
the three-way circuit conflict caused by the Tenth
Circuit’s decision and provide clear, consistent, and
workable guidance to public entities and claimants
around the country on an important issue of federal
law. Public entities and claimants alike will benefit
from clear, consistent authority as to when the statute
of limitations begins to run on ADA claims. Moreover,
subjecting public entities to near limitless liability
ultimately borne by taxpayers as the Tenth Circuit’s
adoption of the repeated violations doctrine does goes
against the important public interest served by
statutes of limitations, delaying accessibility and
threatening to disrupt essential public services.
For the reasons stated above and in the petition,
amici urge the Court to grant a writ of certiorari to the
Tenth Circuit to resolve the circuit split and reject the
repeated violations doctrine for ADA claims.

23
Respectfully submitted,
WYNETTA P. MASSEY
Counsel of Record
LINDSAY M. ROSE
Office of the City Attorney
30 S. Nevada Avenue, Suite 501
Colorado Springs, CO 80903
(719) 385-5909
wynetta.massey@coloradosprings.gov
lindsay.rose@coloradosprings.gov
Counsel for Amici Curiae

